No. 20-1461
In the

Supreme Court of the United States
__________________

JAIRO ACOSTA,
POLICE OFFICER FOR THE CITY OF LOS BANOS,
Petitioner,
v.
TAN LAM,
AS SUCCESSOR-IN-INTEREST TO DECEDENT SONNY LAM
(AKA SON TUNG LAM),

Respondent.
__________________
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit

__________________
REPLY TO OPPOSITION TO
PETITION FOR A WRIT OF CERTIORARI
__________________
SUZANNE M. NICHOLSON
Counsel of Record
Attorney at Law
770 L Street, Suite 950
Sacramento, CA 95814
Tel: 916-361-6551
suzanne@smnlegal.com
Counsel for Petitioner

Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . iii
REPLY TO OPPOSITION TO PETITION FOR
WRIT OF CERTIORARI. . . . . . . . . . . . . . . . . . . . 1
I. The petition for a writ of certiorari should be
granted to resolve whether it is plain error to
admit a remote PTSD diagnosis to impeach an
officer’s credibility, and to prove they acted in
conformity with symptoms characteristic of that
diagnosis, absent a non-speculative nexus with
the events in question. . . . . . . . . . . . . . . . . . . . . . 1
A. The issue is not one of discretion, but of plain
error . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
B. The majority opinion creates a dangerous
precedent in conflict with that of other
circuits because it permits the use of a
witness’ remote mental health diagnosis to
impeach their credibility where the evidence
allows only speculation as to whether the
witness actually suffered from that condition
at the time of the event in question . . . . . . . . 2
C. Permitting a jury to speculate that a witness’
remote mental health diagnosis makes them
less credible, and more likely to have acted in
conformity with traits associated with that
diagnosis, creates an unacceptably high risk
of prejudice. . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

ii
II. The Ninth Circuit has once again defined the
clearly established law for a qualified immunity
analysis at an unacceptably high level of
generality . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
A. The dispositive question for the qualified
immunity analysis is whether any reasonable
officer would have understood that a
previously armed suspect who had been shot
but continued to advance on the officer in a
confined and unfamiliar space should be
viewed as “incapacitated” or no longer posing
an immediate threat . . . . . . . . . . . . . . . . . . . . 6
B. Lam’s opposition provides no clearly
established law that would govern the
situation facing Acosta . . . . . . . . . . . . . . . . . . 8
C. Lam’s questioning of existing qualified
immunity jurisprudence is not a reason to
deny this petition. . . . . . . . . . . . . . . . . . . . . . 10
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

iii
TABLE OF AUTHORITIES
CASES
Boyd v. City & County of San Francisco,
576 F.3d 938 (9th Cir. 2009). . . . . . . . . . . . . . . . . 3
City of Escondido v. Emmons,
139 S.Ct. 500 (2019) (per curiam) . . . . . . . . . . . . 7
Dickerson v. McClellan,
101 F.3d 1151 (6th Cir. 1996). . . . . . . . . . . . . . . . 9
Ellis v. Wynalda,
999 F.2d 243 (7th Cir. 1993). . . . . . . . . . . . . . . . . 9
Ellison v. Lesher,
796 F.3d 910 (8th Cir. 2015). . . . . . . . . . . . . . . . . 9
Graham v. Connor,
490 U.S. 386 (1989). . . . . . . . . . . . . . . . . . . . . . . . 6
Hunter v. Leeds,
941 F.3d 1265 (11th Cir. 2019). . . . . . . . . . . . . . . 8
Kisela v. Hughes,
138 S.Ct. 1148 (2018) . . . . . . . . . . . . . . . . . . . . 7, 9
McCoy v. Meyers,
887 F.3d 1034 (10th Cir. 2018). . . . . . . . . . . . . . . 8
United States v. Butt,
955 F.2d 77 (1st Cir. 1992) . . . . . . . . . . . . . . . . . . 5
United States v. Kohring,
637 F.3d 895 (9th Cir. 2011). . . . . . . . . . . . . . . . . 3
United States v. Love,
329 F.3d 981 (8th Cir. 2003). . . . . . . . . . . . . . . . . 4

iv
United States v. Sasso,
59 F.3d 341 (2d Cir. 1995) . . . . . . . . . . . . . . . . 3, 4
United States v. Smith,
77 F.3d 511 (D.C. Cir. 1996). . . . . . . . . . . . . . . . . 4
Waterman v. Batton,
393 F.3d 471 (4th Cir. 2005). . . . . . . . . . . . . . . . . 8
STATUTES
Fed. R. Evid. 404 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
OTHER AUTHORITIES
Joanna C. Scwartz, Qualified Immunity’s Bold Lie,
88 U.Chi.L.Rev. 605 (2021) . . . . . . . . . . . . . . . . 10

1
REPLY TO OPPOSITION TO PETITION FOR
WRIT OF CERTIORARI
I. The petition for a writ of certiorari should be
granted to resolve whether it is plain error to
admit a remote PTSD diagnosis to impeach an
officer’s credibility, and to prove they acted in
conformity with symptoms characteristic of
that diagnosis, absent a non-speculative nexus
with the events in question.
A. The issue is not one of discretion, but of
plain error.
The Ninth Circuit analyzed the district court’s
admission of Acosta’s remote PTSD diagnosis under a
“plain error” standard of review. App. 39-42. To the
extent Lam’s opposition to the petition for writ of
certiorari argues that Acosta waived any challenge to
the PTSD evidence, or that appellate courts must defer
to the district court’s exercise of discretion in the
admission or exclusion of evidence, it misses the point.
The question as to which Acosta seeks review is
whether it is plain error to admit evidence of a remote
PTSD diagnosis to attack a police officer’s credibility
and prove they acted unreasonably where there is no
evidentiary nexus between the PTSD diagnosis and the
incident in question (i.e., no evidence the officer
suffered from or experienced any symptoms of PTSD at
the time).
The majority opinion holds that such evidence may
be admissible absent such a nexus; an opinion in
conflict with those of its sister circuits and one which
presents an unacceptable risk of prejudice. That

2
prejudice manifested itself here, in a verdict premised
on the jury’s acceptance of Lam’s invitation to
speculate that Acosta acted in conformity with a person
suffering from PTSD at the time of the incident; i.e., to
find that because he suffered from PTSD, he acted
unreasonably. The public policy implications of
allowing such speculative use of a remote mental
health diagnosis are national in scale and require
correction by this Court. See Pet. 12-14.
B. The majority opinion creates a dangerous
precedent in conflict with that of other
circuits because it permits the use of a
witness’ remote mental health diagnosis to
impeach their credibility where the
evidence allows only speculation as to
whether the witness actually suffered from
that condition at the time of the event in
question.
The majority held that Acosta’s two-and-a-half-yearold PTSD diagnosis was relevant to his perception of
events at the time of the incident, and his ability to
recall those events accurately. App. 40-41. But
although the symptoms Acosta self-reported to Nurse
Practitioner Jimenez and Dr. Shuman in 2011 could
certainly have impacted on his “ability to accurately
perceive and recall” events at that time, there was no
evidence Acosta suffered from any of those symptoms
at the time of this incident. The majority and Lam
point to testimony from Dr. Mohandie that in general
persons diagnosed with “prolonged” PTSD (lasting 90
days or more) are likely to continue to experience

3
symptoms without treatment. App. 40; Opp.1 21. This
testimony allowed the jury to speculate that Acosta in
fact suffered from PTSD at the time of this incident,
and therefore acted unreasonably.
But Dr. Mohandie never personally examined
Acosta himself, and he could not say whether Acosta
actually suffered from PTSD at the time of this
incident. ER 303-305, 307, 322. The best he could say
was he thought Acosta should have been assessed for
his fitness for duty. ER 305. He conceded that PTSD is
common in law enforcement, and not every officer with
PTSD is incapacitated or needs to report their
symptoms; many can function through it on their own.
ER 306, 325. Missing from Dr. Mohandie’s testimony is
any non-speculative connection between Acosta’s PTSD
diagnosis in early 2011 and his response to the incident
at Lam’s home in September of 2013. Such a connection
is also missing from the majority opinion, which,
referencing Dr. Mohandie’s testimony, holds that “[t]o
the extent this testimony indicated that Acosta’s PTSD
may have caused him to misperceive reality and
consequently overreact to certain situations, it was
probative of credibility.” App.40-41 (emphasis added).
The majority cited several cases for the proposition
that a witness’ mental health condition may be
relevant to their credibility if the condition could affect
their ability to perceive or recall events or to tell the
truth. App. 39-40 (citing Boyd v. City & County of San
Francisco, 576 F.3d 938 (9th Cir. 2009); United States
v. Kohring, 637 F.3d 895 (9th Cir. 2011); United States

1

Opposition to Petition for Writ of Certiorari.

4
v. Sasso, 59 F.3d 341 (2d Cir. 1995)). It then went one
step further to “join” its sister circuits in holding that
such evidence could be relevant even if it consists of a
remote diagnosis from several years prior to the
incident in question. App. 41 (citing United States v.
Love, 329 F.3d 981 (8th Cir. 2003); United States v.
Smith, 77 F.3d 511 (D.C. Cir. 1996)). Missing from the
majority’s analysis, and Lam’s opposition to this
petition, is any recognition that the relevance of a
remote diagnosis depends on a demonstrable nexus
between the diagnosis and the events in question. Pet.
15-17 (discussing how cases all require evidence the
witness suffered from the condition at or near the time
of the incident). The need for that demonstrable (nonspeculative) nexus is undermined by the majority
opinion in this case and must be corrected.
C. Permitting a jury to speculate that a
witness’ remote mental health diagnosis
makes them less credible, and more likely
to have acted in conformity with traits
associated with that diagnosis, creates an
unacceptably high risk of prejudice.
Lam is incorrect that Acosta did not object to the
PTSD evidence as improper character evidence. That
objection, pursuant to Fed. R. Evid. 404, was raised in
his motion in limine to exclude the PTSD evidence. See
Dkt.12 at 24-25. And although the Ninth Circuit did
not specifically address Acosta’s contention that his
remote diagnosis was improperly used as character
evidence – to prove that his PTSD caused him to act
unreasonably in his use of force during this incident –
the centrality of this argument at trial cannot be

5
understated. It serves as a stark example of the
unacceptably high risk of prejudice that can come with
the admission of such evidence. Judge Bennett
addressed that prejudice and the plain error in
admitting this evidence in his dissent. He noted this
was a close case, and that Lam’s “main theory” of the
case was that Acosta responded to this incident
unreasonably because of his PTSD. App. 58-59.
The admission of evidence of a remote mental
health diagnosis invites the jury to speculate that the
witness suffered from the condition at the time of the
incident and acted in conformity with symptoms
characteristic of the condition. The First Circuit has
recognized this risk in United States v. Butt, 955 F.2d
77 (1st Cir. 1992). See Pet. 17-19. Evidence of traits
associated with a particular condition describe
tendencies only, and a person suffering from said
condition might or might not exhibit such traits at any
given time. Butt at 85. It follows that the absence of
any evidence the witness suffered from the condition at
the time in question raises the risk of prejudice from
such testimony to an unacceptable level.
Lam’s suggestion that the PTSD evidence was not
prejudicial because there was ample other evidence
reflecting on Acosta’s credibility is not well-taken. One
need only look at the opening and closing statements of
Lam’s counsel to understand that the PTSD evidence
was the “crucial building block” of his case. See App. 59
(J. Bennett, dissenting). Lam’s references to alleged
inconsistencies between Acosta’s trial testimony and
his statements to investigators at the time of the
incident and/or at deposition, consist entirely of

6
assertions made in counsel’s questions to Acosta that
implied inconsistencies but that were never conceded
by Acosta. Opp. 11-12. Acosta either denied the prior
statements or testified he did not remember what he
had said, and the actual prior statements were never
admitted into evidence. There was no actual evidence
of the alleged inconsistent statements. The jury’s
verdict undeniably rested on its acceptance of Lam’s
argument that Acosta acted unreasonably because he
was suffering from PTSD and “carrying these demons”
with him when he arrived at Lam’s home. ER 58, 69.
II. The Ninth Circuit has once again defined the
clearly established law for a qualified
immunity analysis at an unacceptably high
level of generality.
A. The dispositive question for the qualified
immunity analysis is whether any
reasonable officer would have understood
that a previously armed suspect who had
been shot but continued to advance on the
officer in a confined and unfamiliar space
should be viewed as “incapacitated” or no
longer posing an immediate threat.
There is a reason that specificity is required in
defining the clearly established right of which a
reasonable police officer must be aware in order to be
denied qualified immunity. Every officer knows that
the use of excessive force is unlawful, but it can be
difficult to know, in “tense, uncertain and rapidly
evolving” situations whether the factual circumstances
confronting the officer render a particular use of force
excessive. Graham v. Connor, 490 U.S. 386, 388 (1989).

7
The reasonableness of an officer’s use of force “is judged
against the backdrop of the law at the time of the
conduct” and the result “depends very much on the
facts of each case[.]” Kisela v. Hughes, 138 S.Ct. 1148,
1152 (2018); City of Escondido v. Emmons, 139 S.Ct.
500, 503 (2019) (per curiam). For this reason, it is
inappropriate to define the clearly established right in
this case as whether an officer may use deadly force on
an unarmed or previously armed suspect who no longer
poses an immediate threat. App. 25-32; Opp. 28.2
Clearly they may not.
Framed with the requisite degree of specificity, the
dispositive question in this case is whether the law was
clearly established that an officer may not use deadly
force on a suspect who has attacked the officer with a
deadly weapon, has been wounded, and although no
longer armed continues to advance on the officer in a
confined and unfamiliar space. In other words, would
it be clear to every reasonable officer that the suspect
does not pose an immediate threat under those
circumstances? None of the cases cited by the majority
present such a scenario. See Pet. 23-28.

2

While the majority emphasizes that it is clearly unlawful to use
deadly force on a suspect who no longer poses an immediate threat,
Lam prefers to emphasize that an officer may not use deadly force
on an “incapacitated” suspect. Neither describes the circumstances
facing Acosta here. Even if, as Lam insists the jury could have
found, Sonny was “stumbling” towards Acosta, he was still
advancing – not incapacitated – and a reasonable officer could still
have viewed Sonny as an immediate threat.

8
B. Lam’s opposition provides no clearly
established law that would govern the
situation facing Acosta.
None of the additional cases cited by Lam in his
opposition present a scenario that would put Acosta on
notice that a suspect like Sonny no longer posed an
immediate threat either. Opp. 31-32. In Hunter v.
Leeds, 941 F.3d 1265 (11th Cir. 2019), the suspect
pointed a gun at the officer who fired three shots in
response. Hunter at 1277. Viewing the facts most
favorable to plaintiff, the suspect then dropped his
weapon out of an open passenger door and made no
effort to flee or otherwise threaten the officer. Id. at
1280. The officer then fired several more shots at the
now unarmed suspect. Id. at 1277. The court held it
was proper to deny qualified immunity under these
facts because it is clearly established an officer may not
use deadly force on an unarmed suspect who poses no
immediate threat. Id. at 1280-1281.
In Waterman v. Batton, 393 F.3d 471 (4th Cir. 2005)
the court reversed a denial of qualified immunity for
officers who fired a series of shots at a suspect who was
accelerating towards them in a vehicle, and then fired
a second series of shots after the suspect passed them.
Id. at 474-475. Even though a jury could find the
second round of shots to be excessive, the law was not
clearly established that the officers’ conduct would be
unlawful given the entire sequence of events involved
a tense, rapidly evolving situation spanning only a few
seconds. Id. at 477, 482-483.
In McCoy v. Meyers, 887 F.3d 1034 (10th Cir. 2018)
the court reversed a grant of qualified immunity for

9
officers who, having used a carotid restraint maneuver
to subdue (and render unconscious) a suspect, then
used the same maneuver a second time after the
suspect regained consciousness, even though he was
now in handcuffs with his legs zip-tied together. Id. at
1038. Qualified immunity could not protect the officers
for their second use of the carotid restraint when the
suspect clearly no longer posed a threat.
In Ellis v. Wynalda, 999 F.2d 243 (7th Cir. 1993) the
court held qualified immunity was inappropriate for an
officer who shot a fleeing burglary suspect in the back,
when they had no reason to believe was armed or posed
an immediate threat to anyone. Id. at 247.
In Dickerson v. McClellan, 101 F.3d 1151 (6th Cir.
1996) the court reversed a grant of qualified immunity
for an officer who, viewing the facts most favorably to
plaintiff, fired his weapon at a suspect standing inside
his home, at an unopened storm door, with his hands
at his side. Id. at 1154-1155, 1163.
And finally, in Ellison v. Lesher, 796 F.3d 910 (8th
Cir. 2015) the court affirmed the denial of qualified
immunity to officers who shot an unarmed man who
was not advancing on the officers but merely “standing
in his own home after [the officers] unlawfully entered
his apartment and ignored his requests to leave[;]”
circumstances under which no reasonable officer would
view the man as an immediate threat. Lesher at 916917.
The factual differences between these cases and the
situation confronting Acosta in this case “leap from the
page.” Kisela, 138 S.Ct at 1154.

10
C. Lam’s questioning of existing qualified
immunity jurisprudence is not a reason to
deny this petition.
Lam argues that the degree of specificity required
by this Court’s existing qualified immunity
jurisprudence is “excessive” and at odds with the realworld decision-making processes actually engaged in by
police. Opp. 34-36. He cites a single study in the
University of Chicago Law Review that argues police
officers do not receive regular training or education
about recent excessive force decisions that would
actually put them on notice of specific factual
situations in which their use of force could be
considered excessive. Opp. 35 (citing Joanna C.
Scwartz, Qualified Immunity’s Bold Lie, 88
U.Chi.L.Rev. 605 (2021)). Whether or not the doctrine
of qualified immunity is realistic in its assumption that
officers are actually aware of existing law that would
put them on notice that their conduct is clearly
unlawful is not at issue in this case. What is at issue is
the Ninth Circuit’s continued insistence on defining
clearly established law at a high level of generality in
order to avoid application of this Court’s existing and
controlling jurisprudence on the doctrine. Left
uncorrected, the majority opinion leaves police officers
in an entire region of the country to speculate as to
whether their use of force in tense and rapidly evolving
circumstances will be viewed as unreasonable by those
in a comfortable position to second-guess decisions that
in reality, as demonstrated here, must be made in a
matter of seconds.

11
CONCLUSION
For all the reasons set forth in the petition and this
reply, Acosta respectfully submits that the petition for
a writ of certiorari should be granted on the issues
presented herein, or alternatively, the decision of the
Ninth Circuit Court of Appeals be summarily reversed
as to those issues.
Respectfully submitted,
SUZANNE M. NICHOLSON
Counsel of Record
Attorney at Law
770 L Street, Suite 950
Sacramento, CA 95814
Tel: 916-361-6551
suzanne@smnlegal.com
Counsel for Petitioner

